No.

IN THE
SUPREME COURT OF THE UNITED STATES

On Petition of Certiorari
To the Fourth Circuit Court of Appeals

Lawrence E. Mattison; PETITIONER
v.

Denis R. McDonough;
Secretary Department of Veterans Affairs; RESPONDENT
PROOF OF SERVICE
I, Lawrence E. Mattison; pro se Petitioner, do swear or declare this on this date

SepVefu'tD&r 3*1 ., 2021, as required by the U.S. Supreme Court Rule 29.1 have
served the enclosed PETITION FOR WRIT OF CERTIORARI on each party to the
above proceeding or that party’s counsel, and on every other person required to be
served, by depositing an envelope containing the above document in the United
States mail properly addressed to each of them and with first-class postage, or by
delivery to a third-party commercial carrier for delivery within 3 calendar days.

Page 1 of 2

The Names and addresses of those served are as follows:
(1)

Raj Parekh (counsel of Record); Acting U.S. Attorney (Sean D. Jansen,
AUSA), Office of the U.S. Attorney. 101 West Main Street, Suite 8000.
Norfolk, Va. 23510-1671. (757) 441-6331

(2)

Elizabeth B. Prelogar Solicitor General, United States Department of Justice
950 Pennsylvania Avenue, NW. Washington, DC 20530-0001,

(3)

Mr. Richard A. Sauber; General Counsel,
Office of the General Counsel Department of Veterans Affairs.
810 Vermont Avenue NW. Washington, DC 20420

(4)

And ten (10) copies of the Petition for writ of Certiorari and ten (10) copies
of a motion to proceed in Forma Pauperis were sent by U.S. postal mail to:
The Clerk Of The United States Supreme Court @ 1 First Street, NE.
Washington, DC 20543. (202) 479-3000

I declare under penalty of Perjury that the forgoing is true and correct.
Executed on

.^e^-VemW'r

AH

, 2021

Lawrence E. Mattison
466 Fort Worth Street
Hampton, Virginia 23669
(757) 265-8788
La7matt@vahoo.com

Page 2 of 2

